                                           NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                      CLOSEOUT MEMORANDUM

 Case Number: A09090075                                                         Page 1 of 1


          We received an allegation that a reviewerl of an NSF proposal 2 violated the
          confidentiality of NSF's review process, and used insider information from the
          review process to professionally profit. Specifically, the reviewer allegedly used
          knowledge from the review of a (declined) proposal to dissuade a private donor from
          supporting that proposed project and instead to support the reviewer's project. 3
          After a review of the relevant evidence, we concluded the reviewer disclosed he had
          reviewed the proposal, but not any details of the proposal or review process. Thus,
          the reviewer's successful competition for the donor's funding did not rely on the
          reviewer's use of any confidential information.
          We sent the reviewer a letter admonishing him for the disclosure and reminding
          him of the importance of maintaining the confidentially of NSF's review process.
          This case is closed with no further action taken.




NSF 01G Form 2 (11 /02)
